<html>
<title> - U.S. ECONOMIC AND MILITARY ALLIANCES IN ASIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                 U.S. ECONOMIC AND MILITARY ALLIANCES 
                                IN ASIA

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2015

                               __________

                           Serial No. 114-73

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                ______
   
                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-515 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          










                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Randall Schriver, president and chief executive officer, 
  Project 2049 Institute.........................................     6
Mr. Walter Lohman, director, Asian Studies Center, The Heritage 
  Foundation.....................................................    12
Balbina Hwang, Ph.D., visiting professor, School of International 
  Service, American University...................................    21
Mr. James L. Schoff, senior associate, Asia Program, Carnegie 
  Endowment for International Peace..............................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Randall Schriver: Prepared statement.........................     8
Mr. Walter Lohman: Prepared statement............................    14
Balbina Hwang, Ph.D.: Prepared statement.........................    23
Mr. James L. Schoff: Prepared statement..........................    37

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61

 
              U.S. ECONOMIC AND MILITARY ALLIANCES IN ASIA

                              ----------                              


                        WEDNESDAY, JULY 15, 2015

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 1 o'clock p.m., 
in room 2200 Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. The subcommittee will come to order. Let me 
start by recognizing myself and the ranking member to present 
our opening statements. Without objection, the members of the 
subcommittee can present brief remarks if they choose to, or 
they can submit them for the record.
    Our presence as a Pacific power is amplified and 
underpinned by strong alliances. Each of our alliances contains 
its own history and significance and has promoted security and 
prosperity for the United States and the world for decades.
    In a shifting geopolitical landscape, with China 
integrating itself with other Asian economies and militaries, 
maintaining these alliances and strengthening the U.S.-led 
framework has become very complicated. Where the United States 
used to command unfettered dedication from its regional 
partners, the combination of U.S. attention in the Middle East 
to domestic, economic, and political obligations; historic 
tensions between our allies such as Korea and Japan; and the 
pull of China's economic, military, and diplomatic overtures 
has tempered this trend.
    I look forward to hearing from our panel of distinguished 
witnesses today, which will discuss the status of our alliances 
in the region and evaluate strategies to maximize their mutual 
benefit in the face of a new era of security challenges and 
great power competition.
    The first ally in the region, Japan, has served as perhaps 
the most vital military relationship in the Asia-Pacific. Prime 
Minister Abe's recent visit to Washington highlights the 
dedication between the two countries to remain close allies as 
Asia's strategic and economic outlook evolves.
    Though concerns persist over opposition to U.S. presence at 
the local level, Japan remains a critical partner for our 
military with 54,000 troops, an aircraft carrier, and 
innumerable other assets stationed there. Prime Minister Abe is 
also seeking to increase Japan's defense stature outside the 
confines of the U.S.-Japan alliance by broadening Japan's 
military capabilities and forging new roles in and missions in 
Asia.
    On the economic front, with the recent passage of the Trade 
Promotion Authority and the finalization of the bilateral trade 
issues, Japan is leading the effort alongside the United States 
to make a potential Trans-Pacific Partnership deal a reality.
    Korea. In 1953, the United States and Korea signed a mutual 
defense treaty and our partnership has grown exponentially ever 
since. Korea is also one of our most valued trading partners in 
the region. With the U.S.-Korea free trade agreement, U.S. 
goods and exports to Korea reached a record level of $44.5 
billion in 2014, up 7 percent from 2013. To this day we 
continue to make strides in our economic and security relations 
with Korea. And in April we also signed the U.S.-ROK 123 civil 
nuclear agreement which supports U.S. nuclear industries and 
promotes peaceful uses of nuclear energy between our two 
countries.
    We maintain a very strong military relationship with the 
Republic of Korea and that relationship is our most important 
asset in countering the rogue North Korean regime. As Korea's 
capabilities continue to grow and mature, our relationship has 
evolved toward greater equality and burden-sharing. Our two 
countries still have several issues to resolve, however, 
including the transfers of wartime Operational Control, 
realignment of U.S. Forces, and whether Korea would be 
interested in deploying a THAAD missile defense system.
    We looked forward to welcoming President Park Geun-hye to 
the United States earlier this year and she didn't let us down. 
She did a great job discussing many of the salient issues in 
our bilateral relationship. Unfortunately, the tragic MERS 
crisis in the region has forced President Park to delay her 
summit with President Obama, but we look forward to welcoming 
her when she reschedules.
    The Philippines is also another incredibly important ally, 
and has a long history of extensive military cooperation, 
disaster assistance, and converging economic and security 
objectives. Our continued cooperation is especially important 
in light of China's contested legal interpretation and 
increased military aggression in the South China Sea, and I 
look forward to hearing about how we can work with the 
Philippines to help them modernize their military, improve our 
economic relationship, and deter coercive Chinese behavior in 
the disputed territories.
    Thailand continues to serve as a regional operation 
platform for over 50 U.S. Government agencies. Despite some of 
the concerns with democracy, human trafficking, and other human 
rights issues which continue to strain our relationship, we 
still have, I think, a pretty robust relationship with them.
    We have expressed concerns about the Thai Government's 
behavior since the coup in 2014, and we have since reduced 
participation in the Cobra Gold military exercises. Right now, 
the prospects of future cooperation are unclear, but the 
potential for stronger relations in the near future--while they 
are narrow--are not evaporated, and I welcome any ideas and 
thoughts from witnesses on how we could gain leverage and 
address major concerns about Thailand's domestic circumstances.
    With a rising China that competes for influence with our 
allies, partners, and friends, our alliances serve a very 
paramount role in both providing reassurances against 
aggressive and unproductive behavior, and strengthening 
interdependence and capacity among Asian countries. I look 
forward to hearing from all of our witnesses not just about how 
we work with our allies, but how our allies can work with each 
other to accomplish our mutual foreign policy and security 
goals in Asia.
    Members present will be permitted to submit written 
statements to be included in the official hearing record, and 
without objection the hearing record will remain open for 5 
calendar days to allow statements, questions, extraneous 
materials for the record subject to the length limitation in 
the rules. And I now recognize the ranking member, Brad 
Sherman, for any statements he might have.
    Mr. Sherman. Thank you, Mr. Chairman. Today we will focus 
on our alliances, economic and national security with Japan, 
South Korea, Thailand and the Philippines. As we speak, the 
Obama administration is negotiating the Trans-Pacific 
Partnership which will for the first time include Japan as a 
free trade partner with the United States.
    As I have said before in this subcommittee, this is a 
mistake. The TPP will result in our trade deficit ballooning 
and the loss of American jobs. We need only look at the results 
of the deal with South Korea where the Economic Policy 
Institute is now able to look backward to see the effect of 
that agreement and has shown that it has cost us some 75,000 
jobs here in the United States as our trade deficit with South 
Korea has grown.
    Now I believe in massive increases of trade, but we will 
have free access to foreign markets only when we sign result 
oriented trade agreements that require trade balance. Otherwise 
we are in a circumstance where other countries with very 
different cultures and very different legal systems are able to 
use every non-tariff barrier they wish, and we simply do not 
respond.
    Now as to national security, our national security policy 
is influenced tremendously by the Pentagon and every entity 
looks to meet its own institutional needs. Look at the history 
of America and our military during the 120, 130 years that we 
have spent on the world stage outside our own continent. Every 
time the Pentagon faces a uniformed enemy we win with glory, 
and in the case of the Soviet Union without actually having to 
engage in a major military effort.
    From the Spanish War through the Cold War, every time we 
confront a non-uniformed opponent, an insurrection or something 
asymmetrical it has been an extremely painful, sometimes 
winning sometimes losing but always painful, process for our 
military. Start with the Philippine insurrection right through 
the Vietnam War through Fallujah and Afghanistan.
    So needless to say, it meets the institutional needs of the 
Pentagon that we face a worthy foe that is uniformed and 
conventional and technological. And so the country that is not 
the official subject of our hearing today, China, is the only 
country that can fill that institutional role. And everything 
at the Pentagon is designed to say how can we ignore or at 
least downplay the problems we face in the Middle East and 
elsewhere and do our procurement and our research to confront 
China in a glorious war or, better yet, non-war over islets of 
incredibly little value to their purported owners and of no 
value, or at least we don't own them, to the United States?
    Looking at Japan we see a country that spends 1 percent of 
its GDP on their military. We spend supposedly 4 percent on our 
military, but that is only by ignoring the cost of veterans' 
benefits which is incredibly bad cost accounting. The cost of 
our defense includes the compensation package we give our 
soldiers and that includes their veterans' benefits. Imagine 
what would happen to a car company that didn't include in the 
cost of producing the car, the pension benefits it pays to its 
workers.
    So we are spending much closer to 5 percent of our GDP on 
our military. Japan is on the front lines. They are their 
islets in their own estimation, China would say otherwise, and 
they stick to 1 percent. And it is useful that the Lower House 
in Japan is considering adopting the collective defense 
principle, but a change in principle was nice; I would like to 
see a change in effort and money. And keep in mind these islets 
are not valuable, they are just an excuse for countries to 
fight and to renew the conflicts they have from World War II 
and the bad blood and who did what to whom. And if they are 
valuable, they are not valuable to the United States. If there 
is any oil, and there isn't, it is Japanese oil, it is Korean 
oil, it is Chinese oil, it is certainly not our oil.
    Also I pick up on the chairman's comments that we need to 
get our allies to work together. The Japanese could stop 
relitigating World War II and that would make it a little 
easier for them to coordinate with Korea and our other allies.
    As to Vietnam, they are spending only 2.4 percent of their 
GDP on their military. They are literally on the front lines. 
We are not talking about islets here. We are talking about 
their continued existential existence. And they are managing to 
spend--usually the supporting actor, the United States, would 
be spending less and they would be spending more.
    As to the Philippines, our military relationship has 
changed. We appreciate the use of eight military bases on a 
non-permanent basis. As to Thailand, we do not have the treaty 
structure for our military cooperation, but for over 60 years 
Thailand has served as an operational platform for our defense 
efforts. We have seen challenges to Thailand's democracy and we 
look forward to Thailand hopefully reaching a greater level of 
social harmony and adherence to the rules of law and democracy, 
and I yield back.
    Mr. Salmon. Thank you. The chair recognizes Mr. Duncan.
    Mr. Duncan. Thank you, Chairman. I have a markup in 
Homeland Security and that is why I am going to have to go, but 
I just appreciate the opportunity to make a couple of 
statements. First off, I will align myself with your opening 
comments.
    And the second thing is, one thing I would love to hear 
from the hearing had I been able to stay is I am very, very 
concerned about the Spratly Islands and China's incursion there 
and what it means for the Philippines, but what it means for 
our broader posturing in the region by China. And it is the 
Spratlys today; is it somewhere else tomorrow? And I hope the 
panelists will touch on that because I very much value the 
relationship we have with the Philippines.
    And so I would look forward to maybe following up with you 
at another point about that, but anyway, with that, Mr. 
Chairman, I thank you so much and I yield back.
    Mr. Salmon. Thank you. Mr. Chabot, did you have an opening 
statement?
    Mr. Chabot. Thank you. I don't really have a statement. I 
will just be brief. I was listening to my esteemed colleague 
from California's statement. I just thought I would comment on 
the trade portion of it briefly because I happen to disagree 
with his points on that.
    And would just say that I think TPA and ultimately TPP and 
perhaps TTIP down the road are vital to our economy and trade 
and job creation here in this country. I know that some jobs 
are lost, but I think that we create far more jobs than we 
lose. And the United States, if we don't move forward with 
these types of agreements are really cutting ourselves out of a 
whole range of opportunities. We are letting others draw up the 
rules, principally China, who isn't part of TPA or TPP but 
ultimately they will be the ones writing the rules, we will be 
following and the rest of the world, particularly that portion 
of the world which is an ever more important part of the world.
    So we need to be involved in this and so I would encourage 
my colleagues. And he is a dear friend. I really enjoy 
listening to him and he is very knowledgeable. I would 
encourage him to listen to the administration on TPA and TPP 
and----
    Mr. Sherman. Can we just freeze the record and say 
encourage him to listen to the administration?
    Mr. Chabot. That is right. Let me just complete my 
statement. I would encourage you to listen to them very closely 
with respect to TPA and TPP and ignore them with respect to the 
Iran deal. I yield back.
    Mr. Salmon. Thank you. I would like to introduce the panel 
members. We are really appreciative that you could take the 
time. Thanks for being so understanding on the flexibility with 
the votes. Those votes get in the way all the time, but that is 
part of our job.
    Today we are joined by Mr. Randall Schriver. He is the 
president and CEO of Project 2049 Institute. He is also 
founding partner of Armitage International LLC and a senior 
associate at CSIS. Prior to his time in the private sector he 
served as Deputy Assistant Secretary of State for East Asian 
and Pacific Affairs, and before that as chief of staff and 
senior policy advisor to then Deputy Secretary of State Richard 
Armitage. Thanks for being here today.
    Do you know Dick Nanto very well over at CSIS? Oh, he 
actually handled Japan there for quite some time. Good guy. 
Really good guy.
    Mr. Walter Lohman is director of the Heritage Foundation's 
Asian Studies Center and an adjunct professor at Georgetown who 
leads graduate courses on American interests in Southeast Asia. 
Before joining Heritage, Mr. Lohman was senior vice president 
and executive director of the U.S.-ASEAN Business Council and 
was a staff member of the Senate.
    Dr. Balbina Hwang is currently visiting professor at 
American University and until recently was visiting professor 
at Georgetown. Earlier in her career she was special advisor to 
the Assistant Secretary of East Asian and Pacific Affairs at 
the State Department and worked as a policy analyst in the 
private sector.
    Mr. James Schoff is a senior associate at the Carnegie Asia 
Program. He previously served as senior advisor for East Asia 
policy at the U.S. Office of the Secretary of Defense and as 
director of Asia Pacific Studies at the Institute for Foreign 
Policy Analysis.
    Thank you all for joining us. The lighting system is very 
much like a traffic intersection. Green means go, amber means 
go really fast, and red means stop. You have 5 minutes, so 
thanks a lot. Mr. Schriver, we will start with you.

    STATEMENT OF MR. RANDALL SCHRIVER, PRESIDENT AND CHIEF 
           EXECUTIVE OFFICER, PROJECT 2049 INSTITUTE

    Mr. Schriver. Mr. Chairman, thank you, Mr. Sherman and Mr. 
Chabot. I appreciate the opportunity to testify today. I also 
appreciate being seated beside colleagues that I respect and 
admire so much. This is a great opportunity for me. Your staff 
asked me to focus specifically on Japan so my written statement 
reflects that and I will make a few opening comments along 
those lines.
    Since Prime Minister Abe returned to office in December 
2012, I think he has provided energy, vision, he has been busy 
implementing the vision and doing real things, and that energy 
extends to the alliance as well. We have seen a number of very 
significant developments. 2015 alone, Mr. Chairman, you 
mentioned his successful visit here to the United States. We 
have completed our work on the joint defense guidelines, 
completed or near complete our bilateral discussion with 
respect to TPP. We are moving into another phase where we are 
talking about roles and missions and how we implement the 
defense guidelines.
    So there is a great deal happening and I think real 
significant accomplishments. There are some challenges and we 
shouldn't overlook those. I think we have to continue this 
momentum. We do have to get TPP across the finish line. We do 
have to continue this process on the defense side going from 
defense guidelines to roles and missions and looking at 
contingency and getting into more realistic planning.
    We of course have longer term challenges. I think on 
Japan's side whether they can fire that so-called third arrow 
with economic reform and put their economy on a better long 
term footing, because if they don't demographics loom with an 
aging population and that will affect our alliance because more 
resources would have to go to the social programs and perhaps 
then less available for our security cooperation.
    On the U.S. side, I think it was made mention that we 
occasionally have diversions to the Middle East and other 
crises. Those are understandable, but I think for our allies 
that does create some anxiety and from time to time we do hear 
about that. They are interested in whether or not we will have 
the resources on the defense side if we are continuing to live 
with sequestration what can be done in other forms to ensure 
that the Asia-Pacific, our best forces are forward deployed and 
we are able to meet our obligations and our commitments in the 
alliance.
    China is certainly a challenge and it cuts multiple ways. 
Their assertive behavior, I think, in one respect has really 
breathed life into the alliance. It has really incentivized our 
Japanese partners to take these endeavors seriously. On the 
other hand, the Chinese are very involved in a political 
warfare and propaganda directed at the Japanese to try to drive 
a wedge in our alliance, and these are challenges that we have 
to be aware of and develop counterstrategies to.
    So I think going forward there are some things that we need 
to focus on. Getting TPP across the finish line, your comments 
notwithstanding, Mr. Sherman, I think is very important for the 
alliance, the region and really our strategic position in Asia. 
I think that is the minimum. I think that Japan and the U.S. at 
the conclusion of TPP should look immediately to broaden into a 
second round. Look at countries like South Korea, look at 
countries like Taiwan, and see if they can be brought into this 
broader trade liberalization effort.
    On the security side, I very much agree Japan could spend 
more. We encourage that. They have had modest increases, which 
by maybe some standards look indeed modest, but for Japanese 
standards given their history, I think, are significant. But it 
is really not just the spending. We want, as I said, to go from 
the roles and missions process to get into real contingency 
planning and have a very good discussion in the context of our 
alliance about the Korean Peninsula, about the Taiwan Strait, 
about East China Sea and South China Sea.
    I think also it was made mention about bringing in other 
partners and encouraging our allies to do things with other 
allies so that we move away from the traditional hub and spokes 
and into something that is more networked, and I think Japan is 
poised to do that. They have joined some of our multilateral 
exercises. U.S., Japan, Australia have exercised together. 
There is discussion that Japan may once again join the Malabar 
exercise with the U.S. and India.
    So I think these are very positive developments and it 
needs to be continued to encourage, because I think Japan has a 
very good role to play beyond just the defense of Japan. They 
bring a lot of credibility. They bring capacity capability to 
help other allies improve. They are involved in defense 
programs with the Philippines, possibly Australia. So in short, 
I think Japan can be a valuable security partner for us, not in 
just the things we do with one another but in strengthening our 
regional strategy. Thank you.
    [The prepared statement of Mr. Schriver follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Mr. Lohman?

STATEMENT OF MR. WALTER LOHMAN, DIRECTOR, ASIAN STUDIES CENTER, 
                    THE HERITAGE FOUNDATION

    Mr. Lohman. Thank you. Thank you, Mr. Chairman. Thanks to 
the members of the subcommittee for having me here today 
focusing on this very important issue and particularly 
Southeast Asia. I focused on it because too often Southeast 
Asia gets left off of the agenda when we talk about these 
things.
    I want to start just at the outset by saying that although 
I do serve at Heritage Foundation as the director of the Asian 
Studies Center, what I am saying today does not reflect 
necessarily the views of the Heritage Foundation or anyone else 
on my resume.
    Let me just get right to it. I thought about what I could 
do of most value here, and I think maybe just give some 
perspective on where Southeast Asian security alliances fit 
into our vision for the region, that is, America's historic 
vision. There is a caricature of geopolitics often reflected in 
the media headline that pits the U.S. against China in some 
sort of great game, something more reminiscent of Europe than 
today's Asia. It is a convenient mental map, I think, and it 
makes for very good headlines, but it is not really the way the 
world works today. In this day and age, a great game in Asia 
could not be effectuated without targeting the international 
economic sources of China's power, and no one, not the United 
States, not Thailand, not the Philippines, not even Taiwan, has 
any interest in doing that. If not for any other reason then 
because targeting China's economy would hurt all of us as well.
    America's geopolitical task in Asia-Pacific is pursuit of a 
liberal international order characterized by such things as 
freedom of navigation and overflight, free commerce, political 
liberty, and peace and security. U.S. alliances with the 
Philippines and Thailand represent two distinct strands in this 
effort.
    The Philippines is instrumental in managing the downside 
risk that is pushing back on China's effort to disrupt our 
vision, and Thailand's values lies in its potential for 
maximizing the order's upside. That is all of the cooperation 
that we can do with Thailand. They are far from conflict with 
the Chinese, far from the South China Sea. They have much more 
positive value in their relationship there.
    And I should mention briefly, we are not covering Australia 
today but it is worth mentioning that Australia is another 
important piece of American's security network in the Asia-
Pacific. The Philippines in particular is at the forefront of 
the contest for freedom of the seas in the Pacific. The case 
that is presented for arbitration under UNCLOS is the single 
most important development in the South China Sea dispute in 20 
years. It will either lead to peaceful effective management of 
the dispute or it will provide critical context and motivation 
for increased U.S. presence and defense cooperation with the 
Philippines and with others in the region.
    Thailand is the other side of the coin. The cost-benefit 
calculation in the China-Thailand relationship is much more 
positive. The utility of the U.S.-Thai alliance therefore lies 
in maximizing its massive capacities for service in the cause 
of our liberal vision. Its biggest challenge is political, and 
I think you referenced that in your opening statement. And the 
coup last year in Thailand following months of political unrest 
upended U.S.-Thai relations requiring a cutoff in U.S. grant 
assistance to the Thai military.
    The answer in Thailand is not prioritizing security over 
democracy--the U.S. has to encourage Thailand to return to 
democracy--but in properly balancing the two priorities. I have 
my doubts that the current crisis is being handled in a way 
that will allow us to quickly recover once Thailand does return 
to democracy.
    So based on these quick observations what should the United 
States do with regard to the Philippines? I would suggest that 
Congress double the FMF budget, the foreign military financing 
budget, for the Philippines. Among the many other sort of 
hardware things we are talking about, get the Philippines the 
third coast guard cutter that they have requested and has been 
talked about. Those things have a way of derailing in the 
middle of the process, so that is something that we need to 
keep an eye on.
    I think we should change our position on the application of 
the U.S.-Philippines security treaty to cover features in the 
South China Sea that are currently occupied by the Philippines 
and under its jurisdiction. Currently we are ambiguous in that 
regard.
    With respect to Thailand, the U.S. should, first of all, 
continue our full complement of military exercises to the 
greatest extent possible under current circumstances. Make 
clear our interest in a rapid return to democracy, but in more 
private settings may be better befitting an ally such 
longstanding mutual sacrifice.
    Number three, prepare to hit the ground running with 
resumption of full military to military contact to include a 
doubling of IMET assistance and to send an Ambassador to 
Thailand. The last time we went through this sort of crisis 
with Bangkok, having an Ambassador there, the right one, made 
all the difference in the world and we currently don't have one 
and haven't had one for about a year.
    So this concludes my testimony. I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Lohman follows:]
   
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you. Dr. Hwang?

 STATEMENT OF BALBINA HWANG, PH.D., VISITING PROFESSOR, SCHOOL 
         OF INTERNATIONAL SERVICE, AMERICAN UNIVERSITY

    Ms. Hwang. Good afternoon, Chairman, and distinguished 
members of the committee. Thank you for the kind invitation to 
testify before you today. I am honored for the opportunity to 
share with you my views on the status of our alliance with the 
Republic of Korea and to offer strategies that will serve the 
national interest of both our countries. I have prepared 
written statement for the record but will provide a brief 
summary now.
    Almost a decade ago, in 2006, I testified before the House 
Committee on International Relations on this very topic, but 
under quite different circumstances. The question at the time 
was whether the U.S.-ROK Alliance was at risk as the issues 
confronting us seemed quite dire and challenging. At the time, 
the alliance was endangered primarily by differences on how to 
address the North Korean threat.
    Today, I am happy to appear before you amidst a much more 
satisfactory environment. Today, the alliance is overall strong 
and robust due to much dedicated hard work by both governments 
over the last several years. Domestic political changes 
including changes of administration in both countries were 
certainly also contributing factors and must not be overlooked. 
Today, while both allies remain frustrated over the lack of 
progress in addressing North Korea's nuclear programs, there is 
nevertheless a renewed and strong shared commitment to the 
alliance itself and its primary function to deter and defense 
against North Korean aggression.
    We should be careful, however, to not be complacent that 
all remains perfect with the Alliance, nor that the current 
satisfaction will continue indefinitely. Several flashpoints 
remain as issues in the alliance which have the potential to 
become political issues in South Korea, which has a very strong 
and vociferous civil society that is often opposed to the 
alliance. Therefore it is imperative to understand the ROK's 
perspective on the alliance which has evolved over time due to 
the changing strategic environment in the region.
    Now South Korea's defense posture since the Korean War has 
remained largely constant, relying on three reinforcing 
pillars: Defensive deterrence, forward active defense, and the 
alliance with the United States. But South Korea's security 
challenges have grown more complex and multifaceted in recent 
decades and has grown far beyond the conventional military 
threat posed by North Korea. These changes have evolved in the 
context of South Korea's rapid development which, today, has 
propelled it into a solid middle power status.
    South Koreans today are proud of being a global Korea, and 
this is not just a hyperbole. Today South Korea is the 13th 
largest economy in the world and the 6th largest trading 
partner of the United States. Total bilateral trade with the 
U.S. totaled almost $114 billion last year. What is more 
astonishing is how highly dependent the ROK is on international 
trade for its prosperity. Ninety 7 percent of its GDP is 
comprised of international trade, and 99.7 percent of the 
nation's trade is conducted by ocean transport.
    Now this is important, because for a country entirely 
dependent on oil imports, and by the way Japan is too, but 80 
percent of its oil imports are transported from the Middle East 
through two major choke points: The Straits of Hormuz and the 
Straits of Malacca. What this means is that any disruption of 
the open sea lanes of communication, or SLOCs, are immediate 
and would devastate the South Korean economy.
    Now the security of critical SLOCs in and around Asia has 
been guaranteed and underwritten by the U.S. Navy for the last 
six decades as part of the U.S. commitment to its treaty allies 
in the region. Undoubtedly this has contributed to South 
Korea's ability to rapidly develop its economy into an 
industrial powerhouse today.
    While the U.S. remains maritime Asia's strongest military 
and economic presence today, it is conceivable that China may 
become the dominant regional naval power during this century. 
It is precisely these challenges posed by China that have 
created deep anxieties in the region about the future 
distribution of power. There is a profound uncertainty in the 
region about continued U.S. commitment and presence in the 
region, and unfortunately the so-called Pivot has done little 
to allay these fears. And complicating this uncertainty is the 
very complex relationship that Korea has with China, perhaps 
more so than with any other country.
    Today, South Korean public broadly supports the United 
States. A recent Pew survey shows that 84 percent of the public 
has favorable view of the United States. But by no means does 
this indicate that South Koreans favor the U.S. over China. 
Indeed, South Koreans are increasingly resentful about a 
growing perception that their country is being pressured to 
choose the alliance against China.
    Now I do not believe this is a correct choice, but this is 
an increasingly common view. Such a dynamic is played out over 
the growing controversy over the possible South Korean adoption 
of THAAD, and note that the public debates are framed about 
arguments about negative Chinese reactions more so than about 
whether THAAD serves to contribute to South Korea's defense and 
security. And so these concerns about upsetting China 
essentially reveal that Korea feels the perennial twin fears of 
an alliance relationship, the twin fears of entrapment and 
abandonment.
    And so let me conclude by saying that any close cooperation 
in the future is dependent on continuing the achievements of 
the past few years and that future political leaders should be 
mindful not to sacrifice the achievements and hard work. But we 
ought to be aware there are challenges ahead, and one of the 
biggest challenges will be on how we frame this argument about 
China's interests vis-a-vis the alliance interests. Thank you.
    [The prepared statement of Ms. Hwang follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you. Mr. Schoff.

   STATEMENT OF MR. JAMES L. SCHOFF, SENIOR ASSOCIATE, ASIA 
      PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Schoff. Chairman Salmon, Ranking Member Sherman, 
members of the subcommittee, thank you for the opportunity to 
talk about the U.S. alliance relationships in Asia. I will 
focus on Japan and the Republic of Korea today.
    I have prepared separate testimony for the subcommittee, 
but would now like to highlight two observations about these 
alliances. First, we should take a moment to appreciate how far 
we have come, from a paternalistic relationship helping these 
countries rise from the ashes to more equal and dynamic 
partnership spanning the globe in areas of security, trade, 
investment, technology, global health and many others. This is 
not to pat ourselves on the back, but instead to recognize how 
diverse and mutually beneficial these alliances have become.
    Second, we should consider the fact that the next 60 years 
of these relationships and the environment within which they 
will operate are unlikely to resemble the past 60. In Asia, I 
expect a much finer line between productive harmony and 
potentially devastating conflict. Greater wealth and capacity 
in the region together with enhanced communication and 
interaction converging interests in the regional commons give 
me optimism.
    But nationalism, poor governance, competition for 
resources, rising military investments and other factors 
provide reason to worry. This is a time of transition in Asia, 
and therefore a delicate balance must be struck between U.S. 
reassurance and in viewing U.S. power and presence within a new 
regional framework built upon the foundation of our alliances 
and emerging partnerships.
    U.S. priorities will remain the maintenance of stability, 
openness and access in the region, but we will not be able to 
do this on our own. And so we must accomplish this in concert 
with other nations, and China should be a part of this process. 
Overall, the U.S. response to changing dynamics in Asia should 
include concrete steps to reassure allies and deter Chinese 
coercion combined with active diplomacy and networking in the 
region to foster a more collective approach to rulemaking and 
enforcement as Asia grows. This can ultimately help spread the 
burden for maintaining peace and territorial integrity beyond 
the traditional hub and spoke alliance system, although for the 
time being these alliances are the primary means to preserve 
stability and prosperity.
    The United States must be a leader in Asia in a 
comprehensive way not just in military terms, and we should 
support closer cooperation among our allies and partners 
particularly encouraging our stronger security partnerships 
between Japan and Australia and Japan and the Philippines. For 
example, progress toward an ASEAN economic community, and even 
the fragile Japan-Korea-China framework that can reinforce U.S. 
policy goals vis-a-vis China via the words of trusted allies.
    For the sake of time I would like to highlight three points 
on Japan. First, Japan's reaction on the defense front remains 
modest in budget terms and it is taking reasonable steps to 
loosen restrictions on how its forces can cooperate with 
others. Japan is going beyond mere presence in its EEZ and 
actually considering how to fight and contain a low level 
conflict. This is a more credible form of deterrence, and 
positive, I think, for the alliance as long as the alliance can 
become more integrated and Japan can plug into multilateral 
security cooperation activities more effectively.
    Second, Prime Minister Abe is trying to do this and this 
alliance integration opportunity is embodied in our new defense 
cooperation guidelines. The new alliance coordination mechanism 
mentioned in the defense guidelines should become a more 
valuable tool to coordinate decisions with a higher degree of 
political and operational accountability.
    Third, Japan is also reaching out actively to Southeast 
Asia in order to diversify economic interests beyond China and 
attempt to balance along its periphery. This is an opportunity 
for the United States to coordinate with Japan and reinforce 
our own Asian strategy.
    Two points on Korea. First, North Korea remains the number 
one security concern, and allied solidarity is vital to 
managing any dangerous scenario. A conditions based approach to 
transfer wartime operational control, or OPCON, to South Korea 
is appropriate given the security challenges, but I think we 
should stay focused on this objective. I believe OPCON transfer 
is the correct policy because South Korea is capable, it can 
enhance our leverage vis-a-vis North Korea and China, and it is 
the right thing to do. Implementing OPCON transition, however, 
must not diminish our ability to operate in a joint fashion 
when necessary or undermine mutualized confidence.
    Second, although South Korea has become an increasingly 
important partner in multilateral institutions and responding 
to crises overseas or problem solving be it health, security, 
development, and despite Seoul's understandable focus on the 
Peninsula, the U.S. should keep looking for opportunities to 
involve South Korea in multilateral partnerships to support 
regional governance. They are too important and capable a 
player to have on the sidelines and it will serve their 
interests too.
    Finally, with regard to the poor state between Japan and 
Korea over historical perspectives, this is a situation that 
Washington can neither solve nor ignore. I applaud recent 
efforts by Seoul and Tokyo to improve ties, and long term, I 
think, a deep politicized process of grassroots truth-seeking 
will help solidify relations, but that will take time and is 
beyond U.S. control. Meanwhile, trilateral cooperation with the 
United States on not only North Korea but also in other shared 
security concerns is an opportunity to create a safe haven for 
Japan-Korea collaboration. We should strive to get the public 
in both countries to see such cooperation as a matter of course 
independent of bilateral grievances. And so conducting some of 
our trilateral activities at a higher public profile, I 
believe, might be useful. Thank you.
    [The prepared statement of Mr. Schoff follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you. Mr. Lohman, I am going to direct my 
first question to you. Thailand's ongoing military rule and the 
significant human rights issues that have come with it has made 
justifying military cooperation with Thailand more difficult 
for us. But despite this, Thailand is still a critical partner 
and U.S.-Thai cooperation is important for U.S. security 
efforts in the region. What kind of leverage do we have to 
encourage the military government to move toward elections?
    Mr. Lohman. Well, I think in the case of Thailand, our 
leverage really comes from our long term friendship with the 
country. We do have a security alliance with Thailand, in fact 
we do also have a treaty basis for that alliance dating back to 
1954. So in this case I don't really think of it so much as 
leverage because you don't really use leverage over a friend, 
you try to work it through the difficult times.
    I think ultimately Thailand will return to democracy, but 
they have a couple underlying, very deep political challenges, 
one involving the health of the king, and the other very deep 
social divisions within the country that they have to work 
their way through. In the meantime, I think we need Thailand to 
help us address a lot of the security challenges in the region, 
and so I don't think we want to throw that away in the process 
of pushing for a return to democracy.
    Mr. Salmon. So in response to--this will be for Dr. Hwang 
and Mr. Schoff--the evolving threat posed by North Korea over 
the past several years, the United States and South Korea have 
developed a new counter-provocation plan and a tailored 
deterrent strategy. What should Congress know about these 
plans, and have the various agreements between the U.S. and 
South Korean militaries on responding to North Korean 
provocations made the alliance function more smoothly?
    Mr. Schoff. Sir, I happened to be serving in the Defense 
Department at the time of the Yeonpyeongdo shelling and that 
was a perfect example of the alliance dealing with a low level 
provocation that in many ways in conjunction with the Cheonan 
bombing had prompted this idea of developing a counter-
provocation strategy.
    And I think as tight as our alliance is and as well as I 
think we manage that process, those situations are inherently 
difficult, because the main responsibility of the low end of 
escalation is our ally partner but they want to bring the 
United States in kind of relatively quickly or early or show us 
up to help force the other to stand down. At the same time we 
don't necessarily want to get too deeply enmeshed and yet we 
want to be supportive of our ally.
    So I think that process was a very useful way to help 
deepen mutual understanding about what to expect from each 
other, and I think what Congress should know about this process 
is that it is a continual process. As people change in and out 
of these positions in the Secretary of Defense and in the White 
House and over time, continued communication at the very high 
levels so that mutual expectations are shared about what to 
expect from each other, this reassurance deterrence balance, I 
think, is a very tenuous one.
    We have done okay with Korea on this front, and in the 
tailored deterrent strategy it is even more important because 
the stakes are so much higher on the nuclear side of things. So 
the communication and the Extended Deterrence Policy Committee, 
I think, is extremely valuable. I have been in those meetings 
and we share, we learn things about each other in that process. 
And continued engagement in that process, I think, is the main 
thing I would recommend.
    Ms. Hwang. Well, this is where history is important, 
because, and you talk to any military commanders that have 
served in Korea and they will tell you that it is one of the 
closest alliances, and this is because the U.S. has fought side 
by side with South Korean soldiers. I mean you often hear about 
the blood, sweat and tears, but not only obviously during the 
Korean War but also during the Vietnam War when South Korea 
sent so many troops to reinforce U.S. troops. And this makes 
the U.S.-ROK lines quite different from the U.S.-Japan which, 
in essence, is theory in terms of how they work together.
    I think it is important to understand that for the last 60-
plus years we have actually had a very effective deterrent that 
has evolved against North Korea's conventional threat. So when 
you ask about North Korea's threat it is important that 
currently and in the future North Korea now really poses 
threats on several different fronts. One is the conventional 
one, which I believe our alliance has worked very successfully 
to deter and that is essentially manageable.
    What is more challenging are the asymmetric threats 
increasingly from North Korea, and these include not only 
missile threats, certainly potential use of WMD and now things 
like cyber threats. And the 2015 Strategic Digest published by 
the U.S. forces in Korea essentially identifies North Korea's 
missile threat and comes up with four specific ways in order to 
address them including detect, defend, disrupt and destroy, the 
so-called 4D lines.
    And I believe that South Korea is complementing this. They 
just announced an increase in $8 billion to the 2016-2020 
Fiscal Year budget specifically to address the missile threats. 
So this is an ongoing process, but again the North Korean 
threat is evolving over time.
    Mr. Salmon. Thank you. How is Prime Minister Abe's 
government--I am going to direct this to Mr. Schriver--planning 
to implement the reinterpretation of the right to engage in 
collective self-defense? What is the legislative process ahead 
and what is the expected time frame, and how will the new 
policy affect bilateral security cooperation, and how do the 
revised mutual defense guidelines reflect this change?
    Mr. Schriver. Thank you. That process is unfolding right 
now. They have pursued implementing legislation as a follow-on 
effort to the decision to reinterpret the constitution. It is a 
fight that Prime Minister Abe is willing to take on even though 
in many cases it is not very popular.
    I think right now the legislation that has gone forward and 
actually was approved in the last couple days, that polls under 
50 percent. So he is taking some risks here, but it is a 
follow-on to the previous decision. It is something he is 
committed to. And the timeline will depend on the politics and 
whether or not he wants to go quickly with the separate pieces 
of legislation. At one point I think there were 17 pieces, 
maybe one of my colleagues could refine that. But it is a 
significant number of pieces of legislation in order to fully 
implement this decision.
    For us, I think it gives us greater flexibility. Again we 
have to further define that alongside the Japanese and have 
that discussion about roles and missions, but breaking out of 
this self-imposed limitation on collective self defense opens 
up a wide range of possibilities for our alliance in potential 
conflict talking about known contingencies such as the Korean 
Peninsula, Taiwan Strait, but also peacetime activities, 
humanitarian affairs, disaster relief, freedom of navigation 
operations in the South China Sea. I think, in short, it just 
gives us a lot more flexibility to act as an alliance where our 
shared interests are concerned and this is something that I 
think is a good thing.
    Mr. Salmon. So a segue onto that would be the disputed 
islets of, well, Japan would probably contend they are not 
disputed. It is a settled issue. But the Senkaku Islands, the 
Diaoyu Islands in the East Sea: It has been our policy since 
1972 that the 1960 U.S.-Japan Security Treaty covers the 
islets, because Article V of the treaty stipulates that the 
United States is bound to protect the territories under the 
administration of Japan, and Japan administers the islets.
    So what are Japan's expectations regarding U.S. involvement 
in a hypothetical contingency between China and Japan over 
these islets, and under what conditions do you think that the 
United States would be required by that statute to use force to 
defend the islets or defend Japan?
    Mr. Schriver. Well, I think Japan's expectations should 
rightfully be that we would honor our word. And as you say, the 
treaty has been interpreted that way. President Obama when he 
visited Japan last year articulated that specifically that the 
treaty applies to the Senkaku Islands. So I think they should 
have an expectation that we would honor that word and help them 
defend the Senkakus should there be a crisis there.
    They are fully prepared to do things on their own before 
bringing in the United States, and I think the response that 
they have had to Chinese incursions has been quite robust. And 
if you look at how they are doing their own defense planning, 
they are shifting more resources and attention to the south 
specifically for this purpose to deal with this potential 
contingency.
    So I think Japan's first notion would be to see about their 
own defense, but of course given that we have provided our 
reassurance and our word at the highest level, I think they 
would rightfully expect us to be involved should there be a 
conflict of that nature. Hopefully it is one that we can avoid, 
and I think so far the Japanese response has been pretty 
effective in terms of deterring more Chinese aggression.
    Mr. Salmon. At least for now it is on hold. Mr. Sherman.
    Mr. Sherman. I will pick up on that. On 9/11, forces under 
the protection of the de facto Government of Afghanistan killed 
over 3,000 Americans. NATO recognized this as an attack on the 
United States and NATO countries put their own soldiers in 
harm's way in order to respond. Japan did not put any of its 
forces in harm's way.
    Is this security agreement we have with Japan explicitly 
created as a one-way street? That is to say an attack on Japan 
is an attack on America, but an attack on America is something 
for Japan to sympathize about? Is this a two-way agreement like 
NATO or a gift from the American people to Japan? Mr. Schriver?
    Mr. Schriver. Well, I think as a reminder, of course we 
essentially wrote Japan's----
    Mr. Sherman. I am not saying that this agreement was 
written in Tokyo, it may have been written in Washington. But 
it has got to be evaluated today.
    Mr. Schriver. Right. Yes, sir.
    Mr. Sherman. Is it a mutual defense agreement or a one-way 
defense agreement?
    Mr. Schriver. Well, it is moving in the direction of a 
mutual defense agreement because----
    Mr. Sherman. Moving in the direction. But we lost 3,000 
people and they exposed no soldiers to harm.
    Mr. Schriver. They did commit peacekeeping troops under 
their constitution and what was allowed at the time, and we 
have long----
    Mr. Sherman. So is there anything in our treaty with Japan 
that says they have to come to our aid if we are attacked? Is 
there a line you can point to?
    Mr. Schriver. It is not the same nature----
    Mr. Sherman. So it is a one-way deal, the wisdom of which 
may have existed in prior centuries. I visited Japan not too 
long ago, was shocked by the jingoistic views of some of the 
very top leaders that I met with, with regard to World War II. 
A major leader who played even a more critical role before I 
met him put forth the idea that nanshoku benefited from 
Japanese occupation. What do we do to get the Japanese to build 
bridges like the Germans and to not relitigate World War II? 
Mr. Schoff.
    Mr. Schoff. Sure. Thank you, sir. Well, I think one quick 
point to make is that the Japanese opinion is diverse. That 
there is not one Japanese view, but what you described is 
certainly a worrying or an uncomfortable portion of the 
Japanese population that I think does not fully appreciate how 
severe and subjugating their actions were during that time, and 
therefore does not really understand why the feedback from 
parts of South Korea and parts of China are the way they are.
    Mr. Sherman. And part of it is a matter of when the events 
took place. Their conquest of much of China wasn't any more 
brutal than European expansion in Africa or even in Indonesia. 
It is just that it took place in the 1940s not the 1840s and it 
is very hard to make an argument that conquering China was a 
fair thing to do in the 1940s.
    Mr. Schoff. I think that is a valid point and certainly one 
that some in Japan would say we were kind of following the lead 
of many of the other imperial powers. I think the point, or 
what I try to encourage Japanese friends who may feel this 
way--plenty do not feel that way; plenty learn very 
sufficiently about the history--is to say the focus should not 
be on kind of what was right or wrong in the context of what 
was going on at that point, but here we are now and you have 
neighbors that feel the way they do and we have an education 
process that I think needs to be continued.
    Mr. Sherman. And trivialize the concerns of those who are 
concerned about the so-called comfort women, which I think is 
perhaps not a good euphemism, then you are going to have a 
great difficulty doing business in East Asia.
    What do we do to get the Japanese to spend more on their 
military? We are told we have to defend the oil of the Middle 
East. Why? Well, because the world economy is dependent upon 
it. Why? Because Japan burns Middle East oil. So how do we get 
Japan to spend more than 1 percent, and how is it they have 
stuck us with the responsibility of defending their oil 
tankers, which by the way don't even have American flags or 
American troops?
    Mr. Schoff. Well, sir, just quickly responding, I believe 
Japan does contribute in a variety of ways. Certainly when they 
are helping the Syrian refugees in the Middle East that is 
helping the overall situation. When they are contributing to 
counterpiracy operation in the Gulf of Aden that helps. I 
understand that it is not an additional percent or two of GDP 
necessarily, but they do have legal and political limitations.
    Mr. Sherman. Well, it is all wrapped up in 1 percent of 
GDP.
    Mr. Schoff. Well, those other expenditures are beyond that 
on different line items. But I think we need to continue to 
encourage. To me it is less about the money right now. They 
don't necessarily get the best value for money in the way that 
they procure and the way they maintain their forces, so I think 
they are moving in a direction to be able to have a more 
competitive defense industry that may reduce procurement costs; 
they may get more value for the dollar. But it is also about 
loosening legal restrictions on being able to be a more equal 
partner in multilateral security cooperation.
    Mr. Sherman. When you save hundreds of billions of dollars 
by keeping legal restrictions it is hard to loosen legal 
restrictions.
    Dr. Hwang, South Korea is developing its own missile 
defense system. They could be buying the American system. They 
run a huge trade surplus with the United States. We are 
supposed to be partners in their defense. Why are they creating 
their own instead of buying ours?
    Ms. Hwang. Well, I certainly can't speak for the South 
Korean Government. Clearly though there are obviously economic 
reasons they want to develop their own system domestically. 
There are some political ones though too. There is this 
impression among South Koreans, and again this is the civil 
society that is opposed to the alliance. They view the alliance 
as an outdated form essentially of dependence on the United 
States. They don't necessarily trust the United States. And so 
by relying on a U.S. system this perpetuates this notion that 
somehow South Koreans are dependent on the United States. 
Personally I think that obviously South Korean adoption of the 
THAAD does make the system much more interoperable and makes 
much more sense for the South Korean defense.
    Mr. Sherman. I yield back.
    Mr. Salmon. Thank you. Mr. Lowenthal?
    Mr. Lowenthal. Thank you, Mr. Chair. I would like to kind 
of follow up. I found the discussion of Japan very interesting. 
And I want to talk, and I know this is a little bit off the 
topic, but I want to talk, this past weekend I was honored to 
host the United States Ambassador to Vietnam, Mr. Ted Osius, in 
my district. I represent a very large section of Little Saigon. 
Well, the largest part of Little Saigon, and I was pleased that 
the Ambassador came. And much of the discussion was about the 
Trans-Pacific Partnership, and he heard many of the concerns of 
my constituents who have deep misgivings about efforts to 
strengthen ties, economic ties especially between the United 
States and a Southeast Asian country such as Vietnam because of 
human rights issues in Vietnam.
    And so I want to ask you if you have any thoughts about 
that. How do we balance our strategic interests with human 
rights interests if you have, I mean we are really talking 
about, it kept coming up in the polls that 92 percent of the 
people in Vietnam want closer economic ties with the United 
States and not China. And I am going to talk a little bit about 
that also, about China.
    And so we see this on both countries, but I am also very 
concerned about human rights issues and what we can do about it 
and what your thoughts are, how we strengthen this alliance 
when we know that there are countries that we are talking about 
that have terrible records on human rights, like Vietnam. So I 
am wondering, any thoughts about that?
    Mr. Lohman. Well, I think of the TPP and some of these 
trade connections that we are making less in strategic terms 
than I do in economic terms. I don't really see inclusion of 
Vietnam in the TPP as a way of building strategic connections 
to Vietnam. It is really a way of helping them liberalize their 
economy. And so the connections from the econ side and the 
liberalization side to the human rights side, I think----
    Mr. Lowenthal. But people also see it there as a way of 
breaking the dependence of Vietnam from China too. That is 
critically a part of the equation. And it may not be directly 
as you are talking about, but in that equation. And whether it 
is in, I am going to ask you also to tell me whether it is 
because of the issues in the South China Sea or whatever, but 
they see this as that relationship with China is also part of 
that equation.
    Mr. Lohman. They may see it as a way to diversify their 
ties. I mean, I think they still do have significant economic 
interests in China and with China, trade connections and 
investment connections and that sort of thing. So maybe they 
want is fully diversify, and in that sense the TPP does that 
for them as well. But I just don't see it as a tie-up. I 
think----
    Mr. Lowenthal. But what about in terms of economic issues 
though?
    Mr. Lohman. What is that?
    Mr. Lowenthal. What about us lifting the lethal weapons ban 
with----
    Mr. Lohman. Well, no, I mean on those things----
    Mr. Lowenthal. It is beginning this, well, I am just 
wondering how do we deal especially around when we know there 
is strong human rights violations.
    Mr. Lohman. Yes. I think the restrictions that we have on 
lethal shipment of arms to Vietnam is a prudent thing and 
something that we have to take on a case by case basis. We just 
sent them these P-8 aircraft or just sold them P-8 aircraft in 
a way to help them address a problem we have in a nonlethal 
way, but help them contribute to something that we both have. 
But it is not the same as giving them tanks or guns and that 
sort of thing. So I think that is something that we can manage 
with them. It is a very different relationship than we have 
with Thailand.
    So right now Thailand is going through a hard time but we 
have this long history with Thailand. So you have different 
venues of working through these issues with a country like that 
where you have a treaty alliance than you do with Vietnam. We 
are still emerging from a long period of enmity.
    Mr. Lowenthal. Anybody else about the human rights? Dr. 
Hwang?
    Ms. Hwang. I really appreciate this question, and I think 
the example of South Korea can actually be quite instructive. 
We have to remember that all during the years of the alliance, 
I mean South Korea for the '60s and '70s during rapid 
industrialization also had a really bad human rights problem. 
It was a brutal authoritarian regime. And the United States 
privately, the government had serious problems with South 
Korea's, the government's behavior.
    But the point here, I think, is that what history has shown 
us on the northern half of the Peninsula, basically North 
Korean human rights record and the world's response, correctly, 
I believe, has been to try to isolate them, place economic 
sanctions, and human rights violations is a tremendous part of 
it. But it has not improved the situation. So in other words, 
threatening to cut off economic engagement, threatening to cut 
off economic opportunities has not worked in North Korea.
    Now I think the key point here is that through economic 
vitalization that TPP brings with increased U.S.-Vietnam trade, 
it is precisely as you said, sir, that it is an alternative to 
China. And the reality is, if U.S. has vigorous economic 
contact and trade with Vietnam we can be a much more positive 
influence than China can be in Vietnam.
    And in terms of what can we do about human rights, I think 
the very fact that you even brought up this issue and to 
constantly state this as not necessarily as a condition but as 
a parallel to increase economic engagement, I think, is very 
helpful.
    Mr. Lowenthal. Thank you. And I also wanted to know, what I 
heard also, and I went on a CODEL led by Chairman Salmon to 
Vietnam, much about the fear of what is going on in the South 
China Sea and what role the United States can play or should 
play, and the great fear of Chinese expansionism in the South 
China Sea and which may be part of the driving force of Vietnam 
which we picked up of wanting to, at least part of the reason 
of wanting to be closer to the United States, although that 
love-hate relationship between China and Vietnam goes on long 
before what has taken place.
    Any comments about what our role should be and what you 
perceive how this will affect our alliances, the actual 
activities of China in the South China Sea?
    Mr. Lohman. Well, I think Randy referenced one impact it is 
having, and it is pushing the alliances closer to us and that 
has definitely happened with the Philippines. I think a couple 
of things we could do in the case of the Philippines, because 
it is on the front lines, is continuing to help them build 
their military, build their maritime awareness, build their 
presence in the seas in a way that they can at least monitor 
their claims full time, if not defend them, and maybe one day 
be able to defend them. I think we could also be more vocal 
about the application of our treaty with the Philippines to 
certain areas of the dispute.
    Mr. Schriver. I will just add that I think what Secretary 
Carter said in his speech in Singapore about fly, sail, operate 
is very important. The areas that we regard as international 
waters we need to exercise in a way that demonstrates that, 
freedom of navigation exercises. Clearly we can't deter the 
Chinese from the land reclamation. They are building the air 
strips and militarizing the islands. But challenging the 
broader sovereignty claim of the so-called 9-dash line is very 
important, and I think Japan and Korea have important roles to 
play here. Because they are also nonclaimant countries and 
their participation then underscores that for us it is about 
freedom of navigation. It is about free flow of commerce. It is 
about international law. It is about how you address these 
disputes. And so having other nonclaimant countries such as 
Korea and Japan who count on those sea lines of communication 
alongside us in these efforts, I think, is very important.
    Mr. Lowenthal. Mr. Schoff?
    Mr. Schoff. Sir, could I just add briefly on that? For 
example, when Japan began to engage Vietnam in terms of trying 
to transfer build capacity for maritime domain awareness, 
maritime surveillance that helped prompt Vietnam to actually 
develop a coast guard authority and a separate entity non-
military that would begin to operate these, because that was 
the only actor that then this aid could be given, and there are 
now coast guard exchanges between Japan and Vietnam. So I think 
whether it is Japan or getting other countries involved in this 
capacity building process physically improves their capacity, 
but then in terms of human capital and exchange, I think, is 
also very important.
    Mr. Lowenthal. Thank you. And I yield back.
    Mr. Salmon. Thank you. Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman, Mr. Ranking Member. I 
wanted to go back a little bit to the issue of specifically 
comfort women, but just in general historical tensions which 
have long colored Japan's relationships with its neighbors, 
specifically China and South Korea. China and South Korea and 
many Americans as well argue that the Japanese Government has 
never sufficiently atoned nor adequately compensated them for 
Japan's occupation and belligerence in the early twentieth 
century.
    How should Japan approach the question of history going 
forward? How serious is Japan's historical past to building new 
relationships? And just out of curiosity, recently Prime 
Minister Abe visited the United States and spoke in front of 
Congress, and would love to hear your thoughts and analysis on 
what you thought about the words and his tomes specifically in 
relation to a comfort women issue. Thank you.
    Ms. Hwang. Well, I actually think that focusing on the 
specific historical disagreement is actually distracting. And I 
have to be careful here because I think we as the United States 
should be very careful to not be dismissive. That these are 
very, very highly emotional and deeply and profoundly important 
issues for Asians. And I don't think it helps for us to lecture 
our allies and say this is trivial, get over it and move on, 
there are more important things.
    However, having said that, I don't think it is actually the 
specific, all the disagreements about the actual wording and so 
on. I don't think that is really what is at heart here. What it 
really is is what it represents. And I think there are deep 
uncertainties and anxieties felt by Japan as well as by, 
certainly by China, but South Korea and others in the region, 
and it is uncertainties about the future. And I think 
especially for South Korea, Japan's inability to express what 
Koreans believe is adequate apology, which by the way I don't 
think Japan will ever be able to meet South Korean bar for what 
is adequate, that represents uncertainties, deep uncertainties 
about the future.
    So it is really not so much about the past, but the fact 
that if Japan can't account enough about the past what will its 
behavior be in the future? And so I think as the United States 
with these allies and this complex relationship with China, 
what we should do is focus on those strategic objectives that 
Japan and South Korea share in the future. And I think on that 
they can find common ground.
    Mr. Schriver. Maybe I could add. I think particularly on 
the so-called comfort women, I agree it is a terrible 
euphemism. Japan can and should do more and they should do it 
quickly, because this is a population that is literally dying 
off and they have an opportunity to address it directly in 
meaningful ways now. Prime Minister Abe will have an 
opportunity in August, the 70th anniversary of the end of the 
War to make a statement. There is a lot of attention and focus 
on that statement. And I do expect he will say something to 
correctly take responsibility and address that. Whether or not 
it meets a threshold that the South Koreans will approve of 
that is more difficult to say.
    Yes, ma'am. In fact the other part of your question was 
about his address. I thought his address was excellent for a 
U.S. audience, for the U.S. Congress. You were probably there. 
And he, I think, chose to focus on our difficult past and was 
able to turn it into a positive by having veterans there talk 
about how we rebuilt this relationship into one of the closest 
alliances we have.
    I personally don't think that that was the forum where he 
is going to talk about Korea and China. And by the way I am 
very skeptical on China. They are not exactly the guardians of 
historical accuracy here. If you go through their museum, no 
mention of the Cultural Revolution, no mention of the Great 
Leap Forward, no portrait of Zhao Ziyang, and he was General 
Secretary of the Communist Party.
    But I do think with Korea he has got this opportunity on 
August 15th. He has the possibility of meeting with Park Geun-
hye at various international fora. They haven't had a bilateral 
meeting yet. And I think we should push him not in a 
disrespectful way but among allies that there is some urgency 
on this Korea problem, because this is a community that is not 
going to be around forever and he can do things to positively 
address it.
    Mr. Schoff. I was just going to add that there was a time 
during the 1990s, I think, when Japan and Korea were able to, 
in many ways, paper over a significant difference in historical 
perspective about what exactly happened during the colonial 
era, but they managed to paper over that. Subsequently in more 
recent years enough holes have been poked in that paper and 
that hole that now what used to look like an okay, a seamless 
part of the wall is now a bit of a gaping hole there right now.
    And these efforts in August and other anniversaries are 
opportunities to begin to move in the right direction, but I 
still think fundamentally if you are going to fix that problem 
it is a long term process of education and engagement between 
the two so that sons and daughters of those today have a deeper 
appreciation for what actually happened and they have gone 
through a process of discovering that together. That is 
ambitious and time consuming, but there is not a real 
substitute for that over the long term.
    Mr. Salmon. Well, the buzzers have rung and it looks like 
we have got some votes. This has been a very wonderful panel. I 
appreciate you taking the time to answer all of our questions 
and I am sure we have a million more, but thank you very much. 
And this committee is now adjourned.
    [Whereupon, at 3:51 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                  Material Submitted for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 [all]
</pre></body></html>
